2311 Douglas Street
Omaha, Nebraska68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com

No. - - - MASSACHUSETTS LOBSTERMEN'S
ASSOCIATION; et al.,
Petitioners,
V.

WILBUR ROSS; et al.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of July, 2020, send out
from Omaha, NE4 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
JOSHUA P. THOMPSON
DAMIEN M. SCHIFF
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111

JONATHAN WOOD
Counsel of Record
TODD GAZIANO
Pacific Legal Foundation
3100 Clarendon Blvd.
Suite 610
Arlington, Virginia 22201
Telephone: (202) 888-6881
Email: jwood@pacificlegal.org
Counsel for Petitioners

Subscribed and sworn to before me this 27th day of July, 2020.
I am duly authorized under the laws of the State ofNebraska to administer oaths .

.J:

EML NOT.ARY-Stam.'' llbram
..·. .
RENEE J. GOSS

My Cemm. Elql. September 5, 2023

Affiant

39611

Massachusetts Lobstermen's Association v. Ross
Service List

Counsel for Respondents:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
U.S. Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Defendant-Intervenor Natural Resources Council:
Kate Desormeau
Ian Fein
Natural Resources Defense Council
111 Sutter Street, 21st Floor
San Francisco, CA 94104-4540
(415) 875-6158
kdesormeau@nrdc.org
ifein@nrdc.org
Counsel for Defendant-Intervenor Conservation Law Foundation:
Peter Shelley
Conservation Law Foundation
62 Summer Street
Boston, MA 02110
(617) 850-1770
pshelley@clf.org
Counsel for Defendant-Intervenors Center for Biological Diversity and
R. Zack Klyver:
Roger M. Fleming
Blue Planet Strategies, LLC
4 7 Middle Street
Hallowell, ME 0434 7
(978) 846-0612
rfleming@earthjustice.org

